No. 20-103
In the

Supreme Court of the United States
__________________

STEPHEN E. STOCKMAN,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
__________________
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

__________________

BRIEF AMICI CURIAE OF AMERICAN TARGET
ADVERTISING, INC., ET AL.
IN SUPPORT OF PETITIONER

__________________

MARK J. FITZGIBBONS
Counsel of Record
AMERICAN TARGET ADVERTISING, INC.
9625 Surveyor Ct. #400
Manassas, VA 20110
(703) 392-7676
mfitzgibbons@americantarget.com
Counsel for Amici Curiae

August 12, 2020

i
LIST OF AMICI
Individual amici include (affiliations listed for
identification purposes only):
Rachel Alexander, Former Maricopa County Elections
Attorney
Art Ally, President, Timothy Plan
Jim Babka, President, Downsize DC Org, Inc.
Ted Baehr, Chairman, Good News Communications,
Inc.
The Hon. Bob Barr, Founder and President, Liberty
Guard, Former Congressman, Georgia
Brent Bozell, Chairman, Media Research Center
The Hon. Paul C. Broun, M.D., U.S. House of
Representatives, Former Member, Georgia
Floyd Brown, Publisher, Western Journal
Tammy Cali, President, Eberle Communications Group
James Clymer, Esq., Clymer Musser & Sarno, P.C.
Chad Connelly, President, Faith Wins
William Federer, Author, American Minute, former
candidate for U.S. House of Representatives
Rick Green, President & Founder, Patriot Academy
Rebecca Hagelin, Writer, The Washington Times
Colin Hanna, Chairman, Let Freedom Ring

ii
Howard A. Hickman, General Counsel and Treasurer,
Young Conservatives of Texas PAC
Thomas Lifson, Editor, American Thinker
Sheriff Richard Mack (Ret), President, Constitutional
Sheriffs and Peace Officers Association
Dr. William Magill, Exec. Director, Veterans in Defense
of Liberty
Ed Martin, President, Phyllis Schlafly’s Eagle Forum
ELDF
Jim Martin, Founder/Chairman, 60 Plus Association
Colby May, Esq.
The Hon. Bob McEwen, Executive Director, Council for
National Policy, Former Congressman, Ohio
Malcolm Morris, Chairman, Weathermatic
James Lee Murphy, Esq., General Counsel, America
First Committee
Tom Pauken, Chairman, Westside Helping Hand,
Former Chairman, Texas Republican Party, Former
White House legal counsel’s staff, Reagan
Administration
Frank M. Reilly, Esq., Potts & Reilly, L.L.P.
Stewart Rhodes, Founder and National President, Oath
Keepers
Ron Robinson, President, Young America’s Foundation
Rick Scarborough, President, Recover America Now

iii
Howard Segermark, VP, American Business Defense
Counsel
John Schlafly, Esq.
The Hon. Andrea Seastrand, Former Member U.S.
House of Representatives
Craig Shirley, Reagan biographer and presidential
historian
J. Thomas Smith, President, Early Light Fund
The Hon. Charles H. Taylor, Former Member of US
House - NC 11th district
Richard A. Viguerie, Chairman, FedUp PAC

iv
TABLE OF CONTENTS
LIST OF AMICI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . v
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

McCONNELL v. FEC DOES NOT APPLY
HERE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

II.

IGNORING
FIRST
AMENDMENT
PROTECTIONS OF NONPROFIT
SOLICITATIONS, THE FIFTH CIRCUIT
USED WRONG STANDARD OF REVIEW
FOR FRAUD . . . . . . . . . . . . . . . . . . . . . . . . . 14

III.

JURY INSTRUCTIONS ON TAX-EXEMPT
MISSIONS WERE INADEQUATE ABOUT
THE LAW ALLOWING POLITICS, AND
THEREFORE MISLEADING . . . . . . . . . . . . 22

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

v
TABLE OF AUTHORITIES
CASES
Buckley v. Valeo,
424 U.S. 1 (1976). . . . . . . . . . . . . . . . . . . . . passim
Center for Individual Freedom v. Carmouche,
449 F.3d 655 (5th Cir. 2006). . . . . . . . . . . . . . . . . 6
Chamber of Commerce of the United States v.
Moore, 288 F.3d 187 (5th Cir. 2002). . . . . . . . . . . 6
Citizens United v. FEC,
558 U.S. 310 (2010). . . . . . . . . . . . . . . . . . . . . . . 25
Illinois ex rel. Madigan v. Telemarketing
Associates, Inc.,
538 U.S. 600 (2003). . . . . . . . . . . 15, 16, 17, 20, 22
McConnell v. FEC,
540 U.S. 93 (2003). . . . . . . . . . . . . . . . . . . . passim
Riley v. National Federation of Blind of N. C., Inc.,
487 U.S. 781 (1988). . . . . . . . . . . . . . . . . 15, 16, 21
Secretary of State of Md. v. Joseph H. Munson Co.,
467 U.S. 947 (1984). . . . . . . . . . . . . . . . . . . . . . . 15
Schaumburg v. Citizens for a Better Environment,
444 U.S. 620 (1980). . . . . . . . . . . . . . . . . . . . . . . 15
CONSTITUTION AND STATUTES
U.S. CONST. amend. I . . . . . . . . . . . . . . . . . . . . passim
U.S. CONST. amend. VI . . . . . . . . . . . . . . . . . . . . . . 25
18 U.S.C. § 608(e)(1) (1970 ed., Supp. IV). . . . . . . . . 7

vi
26 U.S.C. § 501(c)(3). . . . . . . . . . . . . . 1, 22, 23, 24, 26
26 U.S.C. § 501(c)(4). . . . . . . . . . . . . . . . . . . . . passim
52 U.S.C. § 30101 et seq. . . . . . . . . . . . . . . . . . passim
52 U.S.C. § 30116(a)(7)(B)(ii). . . . . . . . . . . . . . . . . . . 7
Bipartisan Campaign Reform Act of 2002,
(McCain–Feingold Act, Pub.L. 107–155 . . passim
RULE
Fed. R. Crim P. 52(b) . . . . . . . . . . . . . . . . . . . . . . . . 26
OTHER AUTHORITIES
IRS online guidance, ‘Social Welfare Organizations,
https://www.irs.gov/charities-non-profits/othernon-profits/social-welfare-organizations . . . . . . 25
IRS Rev. Rul. 2007-41, 2007-25 I.R.B. (June 18,
2007), https://www.irs.gov/pub/irs-drop/rr-0741.pdf . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Jeff Krehely, 501(C)(4) Organizations: Maximizing
Nonprofit Voices & Mobilizing the Public,
National Committee for Responsive
Philanthropy, January 30, 2005,
https://www.ncrp.org/publication/501c4organizations-maximizing-nonprofit-voicesmobilizing-public. . . . . . . . . . . . . . . . . . . . . . . . . 24

1
INTEREST OF THE AMICI CURIAE1
American Target Advertising, Inc. is a direct mail
marketing agency that provides services to nonprofit
organizations communicating with members of the
general public and soliciting contributions nationally.
Its chairman pioneered political direct mail in the
1960s and 70s. Its clients include Internal Revenue
Code §§ 501(c)(3) and 501(c)(4) nonprofit organizations.
37 amici are individuals (1) formally associated with
nonprofit organizations, (2) providing services to
nonprofits (including legal representation or
fundraising), and/or (3) are former elected officials or
candidates for elected office. These amici are concerned
for the rights of nonprofit organizations and political
committees to communicate, fundraise, build files of
supporters, and associate with prospective donors and
voters. Because of their experience in nonprofit or
political missions central to this case, your amici wish
to bring to the attention of the Court relevant matters
not already briefed by the parties that may be of
considerable help to the Court.

1

It is certified that counsel for the parties have consented to the
filing of this brief; that no counsel for a party authored this brief
in whole or in part; and that no person other than these amici
curiae, their members, or their counsel made a monetary
contribution to its preparation or submission.

2
SUMMARY OF ARGUMENT
Failing to even mention the First Amendment, and
failing to apply the standards of review in criminal
matters this Court has articulated in areas of nonprofit
political spending and charitable solicitation, the Fifth
Circuit upheld the 10-year conviction of former
Member of Congress Stephen Stockman. By wrongly
using this Court’s analysis applied solely to certain
broadcast communications, the Fifth Circuit erred in
finding a print publication lacking express advocacy
was an expenditure under federal election law. That
court also failed to require the Government to prove
fraudulent intent at the time donations were solicited
from just two wealthy donors for nonprofit projects that
later underachieved. And, that court failed to find fault
with jury instructions that omitted the important
political activities in which nonprofit organizations
may engage, despite this being a criminal case about
nonprofit political expenditures. The Fifth Circuit
creates chilling dangers to lawful day-to-day operations
of nonprofit organizations in their fundraising
communications protected by First Amendment.
Certiorari should be granted to remedy the harms to
First Amendment rights.

3
ARGUMENT
Stockman’s Petition for Writ of Certiorari comes
before this Court at a time of often-bitter disagreement
in this country about political and ideological
differences. At times such as these, there may be even
greater temptation by those who wield authority to
criminalize the free exercise of First Amendment
rights. And, at such times, there may be no greater
need for the courts to ensure those sacred rights are
robustly protected.
Following his unsuccessful primary challenge to
unseat an incumbent U.S. Senator, Stockman was
convicted of various charges related to the types of
nonprofit and political communications that this Court
has stated repeatedly have protections under the First
Amendment, and he was sentenced to ten years in
prison. He petitions this Court from an opinion of the
Fifth Circuit that not once mentions the First
Amendment in its analysis upholding his conviction.
I.

McCONNELL v. FEC DOES NOT APPLY
HERE

Stockman was convicted under Count 12 of his
indictment for causing an excessive campaign
contribution through unlawful coordination between
him as a candidate for U.S. Senate and an Internal
Revenue Code § 501(c)(4)2 organization. The unlawful
coordination on which he was convicted was he (and his
paid associates) raised money from just one wealthy
Republican donor for the § 501(c)(4) organization to
2

26 U.S.C. § 501(c)(4).

4
make an independent expenditure aiding his Senate
campaign. Stockman’s argument on this issue, from his
appeal to the Fifth Circuit, now through his Petition
before this Court, is that there was no “expenditure”
under the Federal Election Campaign Act (“FECA”), 52
U.S.C. § 30101 et seq. Certiorari should be granted so
the conviction on Count 12 may be reversed.
Stockman claims “[i]n upholding [his] conviction,
the Fifth Circuit relied on the McConnell3 discussion on
BCRA4 § 202 to find Buckley’s5 narrowing construction
had been displaced for non-BCRA activity,” and the
“McConnell discussion is at best opaque.” Petition 17.
Your amici respectfully argue that McConnell on
these key points is not opaque, but that the Fifth
Circuit distorts McConnell’ through selectively editing
the key passage from that opinion to agree with, and
reach, the government’s incorrect and unconstitutional
position. The Fifth Circuit would make new campaign
finance law by selectively editing McConnell. These
amici respectfully argue the Fifth Circuit’s opinion is
more plainly harmful to First Amendment freedoms of

3

McConnell v. FEC, 540 U.S. 93 (2003).

4

Bipartisan Campaign Reform Act of 2002, (McCain–Feingold Act,
Pub.L. 107–155,(“BCRA”).

5

Buckley v. Valeo, 424 U.S. 1 (1976).

5
speech, the press, and association6 than mere
misinterpretation of McConnell caused by its being
opaque on this issue.
The Fifth Circuit’s flawed analysis of an unlawful
coordinated expenditure under FECA starts at page 10
and ends at page 14 of its Opinion (Pet. App. 10a-14a).
The Fifth Circuit said that Stockman “caus[ed] an
excessive campaign contribution in the form of a
coordinated expenditure, an offense covered by Count
12 of the indictment,” and governed by FECA. Pet. App.
10a.7
The sole communication at issue for Count 12 was
a print publication distributed via direct (targeted)
mail called The Conservative News. The print
publication was issued by a § 501(c)(4) nonprofit
organization with which Stockman allegedly
“unlawfully” coordinated the payment for
6

The right of association has been at the heart of donations to
causes and candidates, as expressed in Buckley:
And the Act’s contribution limitations permit associations
and candidates to aggregate large sums of money to
promote effective advocacy. By contrast, the Act’s $1,000
limitation on independent expenditures "relative to a
clearly identified candidate" precludes most associations
from effectively amplifying the voice of their adherents,
the original basis for the recognition of First Amendment
protection of the freedom of association. See NAACP v.
Alabama, 357 U.S. at 357.
Buckley, 424 U.S. at 22.

7

The Opinion’s Note 7 (Pet. App. 12a) says the Fifth Circuit’s
precedents about independent expenditures referenced herein at
amici’s Note 8 are distinguishable from the Stockman case.

6
dissemination of the publication. The Conservative
News was critical of Stockman’s opponent in his U.S.
Senate primary race, and favorable to Stockman.
Stockman was clearly involved in the arrangement of
financing for that publication. See Pet. App. 11a-12a.
The Fifth Circuit does not identify that the nonprofit
organization reported this publication to the Federal
Election Commission as an “expenditure” under FECA,
nor any complaints filed with the FEC or legal
adjudications that the organization should have
reported the publication as an expenditure under
FECA. Indeed, under Fifth Circuit law for over a
decade before, and at the time of, the Stockman trial,
there was no objective reason to believe the publication
constituted an expenditure subject to FECA. In fact,
just the opposite was true.8

8

The test about “express advocacy” for purposes of independent
expenditures was addressed in 2006 by the Fifth Circuit in Center
for Individual Freedom v. Carmouche, 449 F.3d 655 (5th Cir.
2006). The court acknowledged the Fifth Circuit’s existing use of
the “magic words” test for express advocacy from Buckley, stating,
“[w]ords of express advocacy include terms “such as ‘vote for,’
‘elect,’ ‘support,’ ‘cast your ballot for,’ ‘Smith for Congress,’ ‘vote
against,’ ‘defeat,’ ‘reject.’” Center for Individual Freedom, 449 F.3d
at 664. Prior to the Center for Individual Freedom decision, the
Fifth Circuit in Chamber of Commerce of the United States v.
Moore, 288 F.3d 187 (5th Cir. 2002) was even more expansive in
explaining what constitutes express advocacy for independent
expenditures. The court concluded that “the Chamber’s
advertisements do not expressly advocate the election or defeat of
a candidate . . . because the advertisements do not contain explicit
terms advocating specific electoral action by viewers. As a
consequence, the advertisements are not subject to mandatory
disclosure requirements for independent campaign expenditures.”
Id. at 190.

7
From the seminal Buckley opinion (which the Fifth
Circuit had expressly acknowledged before the
Stockman trial as to “independent expenditures”)
“expenditures” for purposes of FECA are only those
communications that expressly advocate for the
election or defeat of a named candidate. Buckley
limited the “express advocacy” test to expenditures for
communications that use the “magic words,” such as
“vote for,” “vote against,” “elect,” “defeat,” and certain
other terms,9 which were entirely absent from The
Conservative News for which Stockman was charged
with the crime of excessive contributions via
coordinated expenditure, a term codified at 52 U.S.C.
§ 30116(a)(7)(B)(ii).
As explained more fully below, with the enactment
of the Bipartisan Campaign Reform Act (BCRA) in
2002, a second type of communications called
“electioneering communications” were legislatively
defined as “expenditures” under FECA, and thus made
subject to FECA’s law that prohibits coordination
between a candidate and an entity making the
expenditure. The Fifth Circuit’s Note 6 accurately
describes “electioneering communications” as “any
broadcast, cable, or satellite communication that refers
to a clearly identified candidate for federal office and is
made within 30 days of a primary or 60 days of a
general election.” Pet. App. 12a.
9

Buckley’s widely acknowledged “magic words” test is found at
Footnote 52 of that opinion, and reads, “[t]his construction would
restrict the application of § 608(e)(1) to communications containing
express words of advocacy of election or defeat, such as ‘vote for,’
‘elect,’ ‘support, ‘cast your ballot for,’ ‘Smith for Congress,’ ‘vote
against, ‘defeat,’ ‘reject.’”

8
The print publication that formed the basis for
which Stockman was convicted for unlawful
coordination, The Conservative News, was clearly not
an “electioneering communication,” and undisputedly
lacked Buckley’s magic words that would otherwise
qualify it as an “expenditure” under FECA. (“It is clear
and uncontested that The Conservative News does not
contain direct instructions to ‘vote for’ or ‘defeat’ any
candidate. It would follow, Stockman argues, that
Uihlein did not effect an ‘expenditure’ when he funded
The Conservative News.” Pet. App. 12a-13a.) Therefore,
as Stockman argues and these amici agree, The
Conservative News could not as a matter of law be
subject to FECA’s unlawful coordination rules. This
conclusion should have precluded bringing Count 12 ab
initio.
Instead, the Fifth Circuit reached its errant
conclusion that The Conservative News was an
expenditure under FECA by selectively editing a
passage from McConnell. That passage when read in
its entirety, however, provides a distinctly different
result than what the Fifth Circuit reached. As shown
below, that passage applied solely to BCRA § 202,
which reads:
SEC.
202.
COORDINATED
COMMUNICATIONS AS CONTRIBUTIONS.
Section 315(a)(7) of the Federal Election
Campaign Act of 1971 (2 U.S.C. 441a(a)(7)) is
amended-[[Page 116 STAT. 91]]

9
(1) by redesignating subparagraph (C) as
subparagraph (D); and
(2) by inserting after subparagraph (B) the
following:
(C) if-(i) any person makes, or contracts to
make, any disbursement for any
electioneering communication (within the
meaning of section 304(f)(3)); and
(ii) such disbursement is coordinated with
a candidate or an authorized committee of
such candidate, a Federal, State, or local
political party or committee thereof, or an
agent or official of any such candidate,
party, or committee; such disbursement
or contracting shall be treated as a
contribution to the candidate supported
by the electioneering communication or
that candidate’s party and as an
expenditure by that candidate or that
candidate’s party; and.10
The full passage at issue from McConnell is clearly and
inescapably anchored in a congressional decision that
“electioneering communications” may be “expenditures”
for purposes of FECA and its unlawful coordination
prohibitions:
10

Bipartisan Campaign Reform Act of 2002, (McCain–Feingold
Act, Pub.L. 107–155, https://www.govinfo.gov/content/pkg/PLAW107publ155/html/PLAW-107publ155.htm, (last visited Aug. 10,
2020).

10
6. The District Court’s judgment is affirmed
insofar as it held that plaintiffs advanced no
basis for finding unconstitutional BCRA §202,
which amends FECA §315(a)(7)(C) to provide
that disbursements for electioneering
communications that are coordinated with a
candidate or party will be treated as
contributions to, and expenditures by, that
candidate or party, 2 U. S. C. A. §441a(a)(7)(C).
That provision clarifies the scope of
§315(a)(7)(B), which provides that expenditures
made by any person in cooperation, consultation,
or concert with, or at the request or suggestion
of a candidate or party constitute contributions.
BCRA pre-empts a possible claim that the term
“expenditure” in §315(a)(7)(B) is limited to
spending for express advocacy. Because
Buckley’s narrow interpretation of that term was
only a statutory limitation on Congress’ power to
regulate federal elections, there is no reason why
Congress may not treat coordinated
disbursements for electioneering communications
in the same way it treats other coordinated
expenditures.
McConnell, 540 U.S. at 202-03 (emphasis added).
Compare that full passage from McConnell with the
Fifth Circuit’s edited version and verbal jockeying to
reach its incorrect outcome:
In McConnell, the Supreme Court considered
precisely the statutory language at issue here,
namely the rule (now codified at 52 U.S.C.
§ 30116(a)(7)(B)(i)) that “expenditures . . . in

11
cooperation, consultation, or concert with” a
candidate are to be considered the equivalent of
campaign contributions and restricted
accordingly. See McConnell, 540 U.S. at 202.
The McConnell Court explained that a postBuckley statutory enactment had “clarifie[d] the
scope” of this language, “pre-empt[ing]” a
possible claim that “coordinated expenditures for
communications that avoid express advocacy
cannot be counted as contributions.” 540 U.S. at
202. In other words, the Court held that the
presence of express advocacy is not a
prerequisite of the “settled” rule that when
expenditures are “controlled by or coordinated
with the candidate and his campaign[,] [they]
may be treated as indirect contributions subject
to FECA’s . . . amount limitations.” Id. at 219
(cleaned up).
The Fifth Circuit’s confounding that passage from
McConnell goes beyond interpreting opaque language,
and instead invades the legislative function, making
new (and incorrect) law. Neither BCRA nor McConnell
eliminated the Buckley test that should apply to The
Conservative News and the Stockman case.
BCRA did add, and McConnell did confirm, that
electioneering communications are to be considered
expenditures under FECA, and as explained below
were legislatively designated a “functional equivalent”
of expenditures subject to FECA. Nowhere, though,
does McConnell say or imply that its language quoted
above (“there is no reason why Congress may not treat
coordinated disbursements for electioneering

12
communications in the same way it treats other
coordinated expenditures”) -- or anything from
McConnell -- overruled the Buckley test for nonelectioneering communications. The following passage
from McConnell further helps illuminate the context of
its very limited holding:
In light of our precedents, plaintiffs do not
contest that the Government has a compelling
interest in regulating advertisements that
expressly advocate the election or defeat of a
candidate for federal office. Nor do they contend
that the speech involved in so-called issue
advocacy is any more core political speech than
are words of express advocacy. After all, “the
constitutional guarantee has its fullest and most
urgent application precisely to the conduct of
campaigns for political office,” Monitor Patriot
Co. v. Roy, 401 U.S. 265, 272 (1971), and
“[a]dvocacy of the election or defeat of
candidates for federal office is no less entitled to
protection under the First Amendment than the
discussion of political policy generally or
advocacy of the passage or defeat of legislation.”
Buckley, 424 U.S., at 48. Rather, plaintiffs argue
that the justifications that adequately support
the regulation of express advocacy do not apply to
significant quantities of speech encompassed by
the definition of electioneering communications.
McConnell, 540 U.S. at 205-06 (emphasis added.) That
First Amendment challenge to BCRA’s making
electioneering communications “expenditures” under
FECA did not succeed because:

13
This argument fails to the extent that the issue
ads broadcast during the 30- and 60-day periods
preceding federal primary and general elections
are the functional equivalent of express
advocacy. The justifications for the regulation of
express advocacy apply equally to ads aired
during those periods if the ads are intended to
influence the voters’ decisions and have that
effect.
Id. at 206 (emphasis added).
In campaign finance law one may rarely say
something is clear, but this is: In a First Amendment
challenge, McConnell decided a very narrow issue
about specific legislation governing expenditures under
FECA. The Court held that electioneering
communications are the functional equivalent of
independent expenditures for purposes of Congress’s
authority to regulate in this area of communications
protected by the First Amendment. Any reading beyond
that, like what the Fifth Circuit construed, is not
supported. FECA’s regulation of non-electioneering
communications remains limited by the Buckley magic
words test.
In its review of Stockman’s criminal conviction, the
Fifth Circuit failed to follow this Court’s critical
baseline from Buckley: “Close examination of the
specificity of the statutory limitation is required where,
as here, the legislation imposes criminal penalties in
an area permeated by First Amendment interests.”
Buckley, 424 U.S. at 41. Because The Conservative
News is not an electioneering communication,
McConnell’s holding about expenditures does not

14
remotely apply to the Stockman case as the
Government and Fifth Circuit unconstitutionally forced
it in to convict Stockman under Count 12.
II.

IGNORING
FIRST
AMENDMENT
PROTECTIONS OF NONPROFIT
SOLICITATIONS, THE FIFTH CIRCUIT
USED WRONG STANDARD OF REVIEW
FOR FRAUD

Out of concern if not fear that the standard of
review for fraud applied by the Fifth Circuit to
fundraising solicitations opens the door for the
government to target nonprofit organizations -whether broadly or selectively -- for common, even
everyday failures or underachievement to meet
nonprofit project or program goals, your amici
respectfully urge the Court to issue the writ for
certiorari sought by the Petitioner.
As the Fifth Circuit explains:
Stockman was indicted on four counts of mail
fraud, four counts of wire fraud, two counts of
making false statements in FEC filings, eleven
counts of money laundering, one count of
conspiracy to make conduit campaign
contributions and false statements, one count of
causing an excessive campaign contribution, and
one count of filing a false tax return.
Pet. App. 7a. As described by the Fifth Circuit,
Stockman argued before the court that “the
government produced insufficient evidence of
Stockman’s fraudulent intent. In this context, he
argues that the government’s evidence does not suggest

15
a ‘contemporaneous’ intent to defraud because evidence
of Stockman’s illicit spending cannot establish bad
faith simultaneous with the solicitation and receipt of
donor funds.” Pet. App. 18a. In its written opinion
entirely devoid of any mention of the First Amendment
on any matter it decided, the Fifth Circuit disagreed
with Stockman: “Notwithstanding Stockman’s selfserving view that later misappropriations cannot
evidence earlier bad faith, the jury could rationally
have inferred Stockman’s fraudulent intent from this
largely undisputed evidence. We thus find that the
government has also met its burden with respect to the
‘intent’ element of mail and wire fraud.” Pet. App. 19a.
Since 1980 this Court has on four occasions
prominently addressed the First Amendment
protections of fundraising for nonprofit causes in the
context of government laws targeting fraud. See
Schaumburg v. Citizens for a Better Environment, 444
U.S. 620 (1980), Secretary of State of Md. v. Joseph H.
Munson Co., 467 U.S. 947 (1984), Riley v. National
Federation of Blind of N. C., Inc., 487 U.S. 781 (1988),
and Illinois ex rel. Madigan v. Telemarketing
Associates, Inc., 538 U.S. 600 (2003).
In Telemarketing Associates the Court emphasized
that “the First Amendment does not shield fraud.”
Telemarketing Associates, 538 U.S. at 611-12. Notably,
however, “[t]he First Amendment protects the right to
engage in charitable solicitation.” Schaumburg, 444
U.S. at 632. “Charitable appeals for funds ... involve a
variety of speech interests -- communication of
information, the dissemination and propagation of
views and ideas, and the advocacy of causes that are

16
within the protection of the First Amendment.”
National Federation of Blind, 487 U.S. at 788-789.
As to costs of fundraising, specifically the fees paid
to solicitors acting on behalf of nonprofit organizations,
the Court said, “[w]hile bare failure to disclose that
information directly to potential donors does not suffice
to establish fraud, when nondisclosure is accompanied
by intentionally misleading statements designed to
deceive the listener, the First Amendment leaves room
for a fraud claim.” Telemarketing Associates, 538 U.S.
at 606 (emphasis added). And, “in a properly tailored
fraud action the State bears the full burden of proof.
False statement alone does not subject a fundraiser to
fraud liability,” (id. at 620) and “the gravamen of the
fraud action in this case is not high costs or fees, it is
particular representations made with intent to
mislead.” Id. at 621 (emphasis added). A cause of
action for fraud will survive when those soliciting
attracted donations by misleading potential
donors into believing that a substantial portion
of their contributions would fund specific
programs or services, knowing full well that was
not the case . . . . Such representations remain
false or misleading, however legitimate the other
purposes for which the funds are in fact used.
Id. at 622 (emphasis added). Lastly, the “mere failure
to volunteer the fundraiser’s fee when contacting a
potential donee, without more, is insufficient to state a
claim for fraud.” Id. at 624.
The Indictment states Stockman and his associates
“made false representations in soliciting hundreds of

17
thousands of dollars in donations from charitable
foundations and individuals who ran those
foundations,” and Stockman et al. told these donors
“the donations would be used for charitable and
educational purposes, or for lawful independent
political advocacy ….” ROA.74 (emphasis added). (See
Section I above about why The Conservative News was
lawful advocacy.)
Because of the First Amendment protections of
charitable solicitations, your amici argue that lookback speculations about intent based merely on success
or failure of the projects for which funds were raised
are contrary to the standards articulated in
Telemarketing Associates. By way of example about
how the Fifth Circuit erred, your amici will reference
the Stockman solicitations of donations from Richard
Uihlein, which are described at Pet. App. 4a-6a.
Stockman approached Mr. Uihlein to donate
financing for a printed publication called The
Conservative News to be sent via direct mail. Mr.
Uihlein, a wealthy donor to conservative causes, not
only had known Stockman and previously supported
him, but had prior solicitation dealings with
Stockman’s associate Dodd. Mr. Uihlein testified he
told one solicitor he had “no problem” with donating to
an independent expenditure for Stockman. ROA.2143.
Mr. Uihlein testified he was aware the communication
would be made by the nonprofit organization Center for
American Future. He received a letter acknowledging
a pledge of support of $500,000 to Center for American
Future, and a request for “an additional large sum of
money, $726,000, to mail the entire state of Texas.”

18
ROA.2150-51. Mr. Uihlein testified that Wagner, a
direct mail vendor for Center for American Future,
then later asked him to “basically, pay for postage for
the mailing that is ready to go out.” ROA.2156. This
request was subsequent to Mr. Uihlein’s then-extant,
documented pledge to Center for American Future.
Mr. Uihlein testified he was told the quantity of
newspapers (The Conservative News) would be “830some thousand,” and the mailing needed postage of
$450,571.65. ROA.2157. That donation by Mr. Uihlein
forms the bases of Jury Instructions on Counts 3 and 4.
ROA.919. Mr. Uihlein made his check for the mailing
payable to the U.S. Postmaster.
Center for American Future ended up mailing fewer
than 830,000 copies of The Conservative News. Without
referencing anything in the record supporting its
assertion -- or reasons why -- the Fifth Circuit
nevertheless claims, “Stockman called off the direct
mail campaign shortly before the primary, at which
point only $214,718.51 remained of Uihlein’s …
donation.” Pet. App. 6a.
The Postal Service requires upfront payment, unlike
other direct mail vendors that may work on credit. As
Chief Executive Officer of a direct mail catalogue
company (ROA.2115-17), Mr. Uihlein would know that.
The Fifth Circuit does not say Mr. Uihlein’s donation
was expressly restricted (see Petition 7 for an
explanation of restricted donations). Nor does the Fifth
Circuit say whether or not the balance of Uihlein’s
donation was used to pay the authors of The
Conservative News, for its printing, or for a mail shop
to affix addresses so it could be mailed to its intended

19
recipients. And, payments to the fundraiser(s) whose
services found Mr. Uihlein’s donation were likely
another cost the Center for American Future needed to
pay. Nor does the Fifth Circuit say Mr. Uihlein would
have disapproved of such uses of his donation. Based
on the record (explained below), it would appear just
the opposite is true.
Center for American Future planned to mail
830,000 copies of The Conservative News, and the Fifth
Circuit points to nothing proven by the Government
contradicting that intent when funds were solicited
from Mr. Uihlein. Especially since mailing 830,000
copies would have been good for Stockman’s political
career and “(especially) his political needs” (Pet. App.
5a), it would appear the decrease in the intended
quantity mailed worked against Stockman. Indeed, a
representative for Center for American Future had
asked Mr. Uihlein for a total of over $1.2 million for the
project. Mr. Uihlein instead provided $450,571.65,
hoping other donors might finance the rest for the
“need[ed] millions,” and his “half million would get
some positive results in other races.” ROA.2154.
Therefore, even Mr. Uihlein clearly realized his
donation would not be sufficient to cover the quantity
of mail or projects sought to be executed by Center for
American Future before the election.
The fact that Center for American Future mailed
fewer than the goal of 830,000 newspapers may also be
easily explained when one understands direct mail.
Planned direct mail quantities may decrease for any
number of reasons: (1) the intended number of names
and addresses from lists rented for the mailing may not

20
be available on time to meet the mail date; (2) the
printers of the mail and the mail shops that affix
names, addresses, and postage to the pieces of mail
may be overbooked; (3) funds projected to pay for the
entire costs of the direct mailing may not be available;
or (4) the nonprofit organization may simply decide the
projected quantity was too high to meets its strategic
objectives. (It is not uncommon, for example, that your
amicus American Target Advertising will reduce its
direct mail postage needs budget substantially from
one week to the next based on changes in quantities of
its nonprofit clients’ mail to be sent.)
By concluding there was fraud here, the Fifth
Circuit’s lack of exacting examination of intent at the
time of solicitation would make everyday flexibility of
how nonprofits spend their money on projects, everyday
logistics of direct mail, or even common failures in
nonprofit projects the equivalent of “intentionally
misleading statements designed to deceive the
listener,” articulated under the standards in
Telemarketing Associates, as quoted supra. And as with
Stockman’s solicitations to Mr. Uihlein for the other
tax-exempt projects, such as Freedom House and Life
Without Limits (Pet. App. 4a-5a), there is risk of failure
in completion of those projects. But even the sole donor
to testify at Stockman’s trial understood the need to
provide seed money to encourage others to fund those
projects (“hopefully use [his donation] to encourage
others to contribute” while solicitors “continued to
attempt to raise additional money”). ROA.2132.
To be safe from the approach taken by the Fifth
Circuit, organizations would likely need to put

21
donations in a lockbox while not being able to use those
donations for administrative overhead (including even
regulatory compliance costs), the costs of conducting
more fundraising, or costs of promoting and marketing
their missions in ways to educate the public about
causes (the last having innate benefits, including
attracting more donations). The Fifth Circuit’s
approach could smother and extinguish many
organizations.
The Fifth Circuit failed to adequately address the
issue of whether the Government proved donations
were solicited with intent to defraud, and instead relied
on after-the-fact results that individual programs failed
or under-achieved, examples of which are “Stockman
appears to have promised” one mailing (Pet. App. 3a),
and “Stockman failed to mail any ‘voter education
material’ as promised.” Id. Another example is that the
quantity of the direct mail publication The
Conservative News mailed was less than what was
originally intended (see Pet. App. 6a), but the Fifth
Circuit does not identify any fraudulent intent at the
time of the solicitation was made to Mr. Uihlein.
That the jury may have viewed failure or
underachievement of the projects for which funds were
solicited, and “rationally have inferred Stockman’s
fraudulent intent” (see Pet. App. 19a (emphasis
added)), is contrary to the more exacting First
Amendment standards required for charitable
solicitations. The Government must prove “money [was
obtained] on false pretenses or by making false
statements,” (National Federation of Blind, 487 U.S. at
800) and “particular representations made with intent

22
to mislead.” Telemarketing Associates, 538 U.S. at 621.
The Fifth Circuit, which never mentioned the First
Amendment or its role in protecting charitable
solicitations, failed to hold the Government to the
standard of proving fraudulent intent at the time of the
solicitations. Instead, it served a thin (and bitter) gruel
to uphold Stockman’s conviction.
III.

JURY INSTRUCTIONS ON TAX-EXEMPT
MISSIONS WERE INADEQUATE ABOUT
THE LAW ALLOWING POLITICS, AND
THEREFORE MISLEADING

The Petition addresses the inadequate and
therefore misleading jury instructions about the taxexempt missions of § 501(c)(3)11 and § 501(c)(4)
organizations, and how the “net earnings” of such
organizations may not “benefit any private shareholder
or individual.” Petition 9-10. Those missions and issues
are central to the Stockman case, and key to
understanding why the Fifth Circuit’s opinion failed to
protect, and is dangerous to, First Amendment rights.
As the Fifth Circuit states:
With respect to the jury instructions, Stockman
contends that the district court erred by defining
501(c)(3) and 501(c)(4) organizations in the
charge and by failing to instruct the jury on
Stockman’s “good faith” defense to the tax and
campaign finance counts.
Pet. App. 7a-8a. And,

11

26 U.S.C. § 501(c)(3).

23
Stockman concedes, however, that no
contemporaneous objection was made at trial;
instead, he now argues that the district court
should have excluded the 501(c)(3) and 501(c)(4)
definitions from the charge sua sponte.
Given Stockman’s failure to object at trial, our
review is for plain error.
Pet. App. 10a. Then,
[W]e cannot agree that the district court’s
statutory instructions merit reversal under the
plain error standard. An instruction that
mirrors relevant statutory text “will almost
always convey the statute’s requirements,”
United States v. Lebowitz, 676 F.3d 1000, 1014
(11th Cir. 2012), and Stockman has not
identified any authority rendering it “clear or
obvious” that a district court’s jury instructions
must go beyond the language of the statute in
this context.
Pet. App. 11a.
Nonprofit political spending and missions played a
pivotal role in the Fifth Circuit’s upholding Stockman’s
conviction. Though issues about tax-exempt purposes
may be complicated, it is without doubt that § 501(c)(3)
and § 501(c)(4) tax-exempt organizations do and
lawfully may engage in “politics.”
The federal statutes quoted in the trial court’s jury
instructions (and re-quoted by Fifth Circuit (Pet. App.
9a) and the Petition at 9-10) about the lawful taxexempt purposes of § 501(c)(3) and § 501(c)(4)

24
organizations are completely devoid of any mention of
politics. Yet nonprofits are very politically active, and
per this observer, “[m]any of the most visible and
politically active nonprofit organizations in the United
States are classified by the Internal Revenue Service
(IRS) as 501(c)(4) social welfare groups.” Jeff Krehely,
501(C)(4) Organizations: Maximizing Nonprofit Voices
& Mobilizing the Public, National Committee for
Responsive Philanthropy,
January 30, 2005
https://www.ncrp.org/publication/501c4-organizationsmaximizing-nonprofit-voices-mobilizing-public (last
visited Aug. 10, 2020).
Although not mentioned in the statutes about taxexempt missions used in the jury instructions,
§ 501(c)(3) organizations may conduct the political
activities of voter registration, get-out-the-vote, and
providing voter guides so long as those activities are
not partisan.12 § 501(c)(4) organizations may go further
and engage in partisan political activities, including
12

Guidance from the Internal Revenue Service states:
Section 501(c)(3) organizations are permitted to conduct
certain voter education activities (including the
presentation of public forums and the publication of voter
education guides) if they are carried out in a non-partisan
manner. In addition, section 501(c)(3) organizations may
encourage people to participate in the electoral process
through voter registration and get-out-the-vote drives,
conducted in a non-partisan manner. On the other hand,
voter education or registration activities conducted in a
biased manner that favors (or opposes) one or more
candidates is prohibited.

IRS Rev. Rul. 2007-41, 2007-25 I.R.B. (June 18, 2007),
https://www.irs.gov/pub/irs-drop/rr-07-41.pdf, last visited Aug. 9,
2020.

25
issue advocacy naming and criticizing candidates, and
even express advocacy using “independent
expenditures,”13 so long as the organizations meet a
“primary purpose test,” and do not exceed some
statutorily-unstated threshold of partisan political
activity.14
Unfortunately for the Stockman jury, and more
unfortunately for Stockman himself, the jury received
no adequate legal guidance in the instructions that
“politics” at the core of this case is authorized under
federal law governing tax-exempt missions. Instead,
the jury was sent the statutory language devoid of the
many political activities in which nonprofits may
lawfully engage. In the context of a criminal trial
resulting in a 10-year conviction, the trial court’s jury
instructions about lawful tax-exempt missions were
inadequate, confusing, and therefore devastating to
Stockman’s First and Sixth Amendment rights.
The inadequate jury instructions about lawful and
constitutionally protected activity robbed Stockman of
a fair trial. The Fifth Circuit, however, decided to look
the other way by applying plain-error review (Pet. App.
14a-16a) instead of de novo review as was sought by
Stockman on appeal, and is re-sought in his Petition at
13 (“Independent appellate review to protect First
Amendment rights from chill is de novo, but Stockman
13
14

See Citizens United v. FEC, 558 U.S. 310 (2010).

“[A] section 501(c)(4) social welfare organization may engage in
some political activities, so long as that is not its primary activity.”
See, IRS online guidance, ‘Social Welfare Organizations,
https://www.irs.gov/charities-non-profits/other-non-profits/socialwelfare-organizations (last visited Aug. 10, 2020.

26
also meets the plain-error standard for relief under
FED. R. CRIM P. 52(b). See Section II, infra.”).
Additionally, the Fifth Circuit was harsh in its
criticism of Stockman’s allegedly “repurposing” of
nonprofit funds for personal use. (“As before, Stockman
repurposed the funds. He spent thousands on personal
goods, including airline tickets, fast food, and gasoline.”
Pet. App. 4a). The Fifth Circuit fails, though, to
identify whether the day-to-day expenses of many
nonprofit executives such as “airline tickets, fast food,
and gasoline” were paid by Stockman personally, from
the account of a nonprofit organization, or were
personal benefits from the net earnings of a nonprofit
organization. If the Fifth Circuit’s shotgun
criminalization of expenditures on “airline tickets, fast
food, and gasoline” were to be left unchecked, paid
fundraisers, nonprofit executives, and candidates for
office best be wary of making such common
expenditures.
Given the inadequate instructions by such an
experienced, esteemed, and highly respected judge, it
would be easy for the jury to conclude that use of
nonprofit funds for any political purpose was verboten,
and that yet another slick politician was trying to game
the system. Stockman’s Petition at 34 says it this way:
“[I]t is possible that Stockman was convicted of the
non-crime of failing to work exclusively for educational
or charitable purposes within a § 501(c)(3) or
§ 501(c)(4) entity.” Your amici prefer to say it this way:
It is probable that Stockman was convicted, at least in
part, of engaging in lawful and constitutionally
protected nonprofit political activity because the jury

27
was confused by the legally inadequate jury
instructions. The legally and constitutionally
inadequate jury instructions clearly may have tainted
deliberations, and prejudiced the jury’s view of what
was lawful in this criminal case where (really) the
exercise of First Amendment rights formed the basis
for the conviction.
CONCLUSION
The Fifth Circuit failed to adequately review
Stockman’s criminal appeal in the context of the
important constitutional rights involved. Its opinion in
areas of campaign finance and nonprofit law is
unconstitutional and dangerous to the security of
rights, and certiorari should be granted to remedy this.
Respectfully submitted,
MARK J. FITZGIBBONS
Counsel of Record
AMERICAN TARGET ADVERTISING, INC.
9625 Surveyor Ct. #400
Manassas, VA 20110
(703) 392-7676
mfitzgibbons@americantarget.com
Counsel for Amici Curiae

